BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
CARMEN JOHNSON,

Petitioner
V.

UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33.l(h), I certify
that the Petition for Writ of Certiorari contains 4,829
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on May 21, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

(800) 890.5001

8790 Governor's Hill Drive
Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I Franklin Square
; 1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

•

